<html>
<title> - WATER RESOURCES DEVELOPMENT ACT OF 2010: JOBS AND ECONOMIC OPPORTUNITIES</title>
<body><pre>[Senate Hearing 111-1237]
[From the U.S. Government Publishing Office]




                                                      S. Hrg. 111-1237

      WATER RESOURCES DEVELOPMENT ACT OF 2010: JOBS AND ECONOMIC 
                             OPPORTUNITIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                           ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-442 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 6, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    73
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    77

                               WITNESSES

Kavinoky, Janet F., Director of Transportation Infrastructure, 
  Congressional and Public Affairs, U.S. Chamber of Commerce; 
  Executive Director, Americans for Transportation Mobility 
  Coalition......................................................     2
    Prepared statement...........................................     5
Uno, Victor, President of the Board of Commissioners, Port of 
  Oakland, California............................................    27
    Prepared statement...........................................    29
Woodruff, Matt, Director, Government Affairs, Kirby Corporation..    40
    Prepared statement...........................................    42
    Responses to additional questions from Senator Vitter........    52
White, Mitch, General Counsel, Southern California Office, Manson 
  Construction Co.; immediate past Chair, Association of General 
  Contractors of America, Federal and Heavy Construction Division    60
    Prepared statement...........................................    63

                          ADDITIONAL MATERIAL

Statement of the American Society of Civil Engineers.............    79
Testimony submitted by the National Association of Flood and 
  Stormwater Management Agencies.................................    8
 
                    WATER RESOURCES DEVELOPMENT ACT 
                OF 2010: JOBS AND ECONOMIC OPPORTUNITIES

                              ----------                              


                         THURSDAY, MAY 6, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 9:35 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Klobuchar, Udall, and 
Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    Because we have a vote scheduled shortly, I wanted to get 
through all of the panelists. So, I would ask unanimous consent 
that my statement be placed in the record. And since there is 
nobody here to object, my full statement will be placed in the 
record.
    Today's hearing will examine the ways investment in our 
Nation's water resources infrastructure creates and saves jobs 
and increases America's economic competitiveness. This is the 
kick off hearing as we begin our efforts to develop a Water 
Resources Development Act of 2010, known as WRDA, which will 
authorize the projects and programs of the U.S. Army Corps of 
Engineers.
    As Chairman of the Senate Environment and Public Works 
Committee, job creation is a top priority, and we will hear 
from the witnesses today that water infrastructure investment 
is a proven job creator. The U.S. Army Corps estimates that 
every $1 billion in Federal investment in water resource 
projects creates approximately 26,000 jobs.
    Investments in our Nation's water resources not only create 
and sustain jobs in the short term; they do help us with 
economic recovery. They provide benefits to America's families 
and businesses every day, including maintaining navigation 
routes for commerce, reducing the risk of flooding, and 
restoring our precious ecosystems.
    I look forward to working with Senator Inhofe and all my 
colleagues on both sides of the aisle to move forward with the 
WRDA bill this year. I am hopeful we can repeat the success we 
had in 2007 when we worked closely together to enact a WRDA 
bill. With overwhelming bipartisan support in the Senate, we 
even overcame a veto and overrode a veto on that bill.
    From trade to transportation, disaster prevention to rural 
recreation, WRDA and the projects, policies and programs that 
it authorizes are essential components of creating jobs and 
keeping our economy growing. In California, where we are facing 
some of our Nation's most critical water resource needs, many 
communities rely on projects and programs authorized by WRDA.
    Today on our panel we have a very distinguished 
representative, Mr. Victor Uno. He is representing the Port of 
Oakland, which has benefited significantly from past WRDA bills 
that authorized the Corps to deepen the Port's navigation 
channel. You cannot have a port if the channel is not deep 
enough. That is obvious. And so, the improvements that we made 
were critical to bringing ships into the port and jobs 
associated with one of the busiest ports in the world.
    My State also faces significant flood risk as a number of 
critical flood protection projects across the State that are 
necessary to protect life and property and ensure that 
California maintains its competitiveness. Water Resources 
Development Act of 2007 made significant progress on flood 
control projects in our capital of Sacramento and many other 
cities across the State. It is important that we build on that 
success.
    I am grateful to colleagues on both sides of the aisle for 
their interest in this issue. I look forward to moving forward 
together on a Water Resources Development Act that ensures 
progress on important projects and programs that create jobs, 
support commerce and promote recovery and long-term prosperity.
    So, with that, we are going to open it up. We have a very 
distinguished panel. Janet Kavinoky is the Director of 
Transportation Infrastructure at the U.S. Chamber of Commerce. 
We have worked with her in the past on many issues, and we are 
very happy to have her here. She is also the Executive Director 
of the Americans for Transportation Mobility Coalition.
    With that, Janet, please start.
    [The prepared statement of Senator Boxer was not received 
at time of print.]

  STATEMENT OF JANET F. KAVINOKY, DIRECTOR OF TRANSPORTATION 
INFRASTRUCTURE, CONGRESSIONAL AND PUBLIC AFFAIRS, U.S. CHAMBER 
 OF COMMERCE; EXECUTIVE DIRECTOR, AMERICANS FOR TRANSPORTATION 
                       MOBILITY COALITION

    Ms. Kavinoky. Thank you, Chairman Boxer, for the 
opportunity to testify today on reauthorization of the Water 
Resources Development Act.
    Today I will focus on the Army Corps of Engineers' 
navigation mission. But I want to start by acknowledging the 
Corps' other critical economic and environmental efforts, 
including flood risk management. I know you are going to hear 
more about these from my fellow panelists.
    The Chamber is a champion of maintaining, modernizing and 
expanding infrastructure in order to create and sustain jobs in 
the near term and to support U.S. economic growth and 
competitiveness in the long run. Movement of waterborne cargo 
and related economic activities contribute more than $742 
billion annually to the U.S. GDP, sustaining more than 13 
million jobs. These jobs can be found at ports, on vessels, in 
shipyards, in factories, fields and industrial facilities, and 
throughout the services sector.
    Both the Chamber and President Obama have called for 
doubling U.S. exports within 5 years. One-third of all 
waterborne commerce tonnage is for export and requires a 
reliable and cost effective marine transportation system that 
links coastal ports and waterways, the Great Lakes and the St. 
Lawrence Seaway to keep U.S. goods competitive in the global 
marketplace.
    One in four manufacturing jobs depends on exports. Nucor, 
the Nation's largest steel manufacturer and recycler, employs 
21,000 people nationwide. Because water transportation 
minimizes the cost of transporting raw materials, and 60 
percent of its steel mills, including in Memphis, have access 
to deep water, Nucor is well positioned to expand its exports 
and its jobs.
    One in three acres on American farms is planted for 
consumers overseas. In any given year, 60 percent of all bulk 
agricultural exports are moved via the Upper Mississippi and 
Illinois Rivers, and over 85 percent of Oregon wheat is shipped 
through the Nation's No. 1 wheat and barley export gateway, the 
Columbia and Snake River system.
    Let us focus for a moment on the transportation services 
sector that moves goods, such as Blessey Marine Services, 
headquartered in Harahan, Louisiana, with 500 vessel employees 
on nearly 60 boats safely transporting liquid products up and 
down the Mississippi. And Nashville-based Ingram Barge, 
employing over 2,000 people who operate more than 130 towboats 
and 4,000 barges. Even during the economic downturn, Ingram was 
hiring employees and continuing to buy new barges. In fact, in 
2008 U.S. shipbuilding constructed over 1,200 domestic vessels, 
employing thousands of working in shipyards and related 
industries.
    And of course every ship needs a port. The Port of Long 
Beach supports one out of every eight jobs in that city alone. 
The Port of Baltimore generates more than 50,000 jobs. Over 
160,000 people are employed thanks to the Port of New Orleans.
    And of course ports are not just on the coasts. The Tulsa 
Port of Catoosa is one of the largest and most inland river 
ports in the United States, with 63 industrial facilities 
employing 4,000 people in manufacturing, distribution and 
processing of products ranging from agricultural commodities to 
consumer goods.
    There should be no question that a marine transportation 
system that is prepared to meet future demand for safe, 
reliable and efficient domestic and international freight 
movement creates and sustains jobs, and it grows the economy.
    But are we prepared? Locks, dams and levees are outdated, 
overwhelmed, and in some cases literally falling apart. And 
repair and replacement can take years, even decades. The cost 
associated with failing infrastructure is significant. In 2003 
an 8-week closure at the Greenup Locks and Dam Gate on the Ohio 
River cost $13.2 million in transportation delays, and the 
ripple effects totaled $30 million. Unfortunately, the same 
assets failed recently, costing barge operators $2 million a 
week in estimated losses.
    This Committee has the opportunity through WRDA 
reauthorization to address the lack of a coordinated Federal 
investment and management strategy, to establish priorities for 
addressing the backlog of leads, to increase and stabilize 
investment levels, and to create the conditions for successful 
project delivery.
    Today, the Chamber respectfully submits to you its Marine 
Transportation Policy Statement with recommendations in each of 
these areas. We also endorse the Inland Marine Transportation 
Systems Capital Projects Business Model, developed jointly by 
the Inland Waterway User Board and the Army Corps of Engineers. 
It contains practical, long-term solutions for addressing the 
needs of the inland waterway system by prioritizing projects 
and outlining a potential funding solution.
    In closing, I hope you will consider the Chamber a resource 
as you develop the WRDA bill. We will work with you to ensure 
that it maximizes job creation and economic growth.
    Thank you very much for the opportunity to be here today, 
and I am happy to take any of your questions.
    [The prepared statement of Ms. Kavinoky follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    
    
    
 
    
    Senator Boxer. I want to thank you very much. It is good to 
be on a team with the Chamber. We are not always, but we are on 
this, and we are on the Highway bill, and I think that is 
crucial.
    We have been joined by Senator Udall. We are going to have 
a vote early this morning, so what we are going to try to do is 
get through and then have time for some questions.
    So, our next panelist is near and dear to my heart. Victor 
Uno is the President of the Board of Port Commissioners for the 
Port of Oakland. And Mr. Uno is also the Business Manager for 
the International Brotherhood Electrical Workers Local 595. He 
began his career over 30 years ago working on the berths at the 
Port of Oakland, so it must be quite a thrill for him now to 
make policy on the Board.
    Welcome.

      STATEMENT OF VICTOR UNO, PRESIDENT OF THE BOARD OF 
           COMMISSIONERS, PORT OF OAKLAND, CALIFORNIA

    Mr. Uno. Thank you and good morning, Chairman Boxer, and it 
is a thrill to be here today. I thank you for holding these 
hearings today on the critical need to pass the Water Resources 
Development Act of 2010.
    I am Victor Uno, President of the Board of Port 
Commissioners at our Port of Oakland. Along with six fellow 
Commissioners, our dedicated Port leadership and staff and our 
work force, we have been working daily to protect thousands of 
jobs directly connected to the seaport and airport and the tens 
of thousands of jobs that depend on the Port's ability to 
compete for international trade.
    Our Port, like nearly every American trade gateway, is 
facing unprecedented competition from our neighbors in Canada 
and Mexico. We have all suffered sharp drops in shipping 
volumes during the recession resulting in large revenue losses 
industry-wide. We are now working cooperatively as never before 
to bring back our freight business and secure the investments 
in our infrastructure that we need to compete during the 
ongoing economic recovery.
    For America's ports to succeed, we need your help. We need 
a WRDA bill this year to get our critical maritime and other 
vital infrastructure projects moving.
    Our Port of Oakland covers 18 miles of waterfront on the 
eastern shore of the San Francisco Bay, with nearly 1,000 acres 
devoted to maritime activities and another 2,600 acres devoted 
to aviation. Our Port is the third busiest container port on 
the West Coast and the fifth busiest in the Nation. It is also 
one of the leading export gateways for American products, 
especially for agriculture from throughout the Nation and 
particularly California's Central Valley.
    Our airport is the second largest airport in the Bay Area, 
serving nearly 10 million passengers per year and also among 
the top 20 air cargo airports in the United States.
    Our maritime and aviation operations are both deeply 
affected by WRDA. WRDA is critical to funding our large scale 
modernization projects. In 2001, for example, using the 
authority given by WRDA, construction began on the Port of 
Oakland's $436 million, 50-foot depth harbor deepening project. 
This project has now given us the ability to support the latest 
generation of larger, more efficient container vessels.
    The last environmental phase of the project is being 
completed this year, and the total project is already providing 
enormous benefits to the region. The dredging leveraged 
landside Port investments such as marine terminal expansion and 
the development of an intermodal rail yard. Over 8,800 jobs in 
construction, engineering, maritime, trucking and shipping were 
created. Annual business revenues for the region were increased 
by $1.9 billion, and local tax revenues were increased by $62 
million per year.
    The dredged materials were reused to restore hundreds of 
acres of wetlands along the northern reaches of the San 
Francisco Bay, providing a huge environmental benefit to 
California. The economic benefits gained from WRDA have given 
the 50-foot project an extraordinary 11 to 1 benefit-to-cost 
ratio.
    In short, Senators, WRDA works. WRDA puts people to work. 
We have Senator Boxer and this Committee to thank for the 50-
foot project and for each job that project created.
    Now, during these challenging economic times, Oakland once 
again needs help that only WRDA can provide. I need to comment 
on a critical issue that desperately needs your support.
    Our airport, Oakland International Airport, is located 
along the waterfront of the San Francisco Bay. It was built on 
landfill reclaimed from the Bay, and the runway is barely above 
sea level, protected behind an aging levee constructed in 
segments beginning in the 1950s.
    Last year the Federal Emergency Management Agency concluded 
that our airport's levee failed to meet the standards to 
prevent severe seasonal flooding, over-topping during storms 
and seismic events. If any of these events were to occur the 
airport could suffer hundreds of millions of dollars in 
property damage, in addition to stopping all of our air 
operations, halting emergency response efforts and putting 
lives at risk. This would be an unacceptable though avoidable 
disaster.
    The Port of Oakland is under Federal obligation to 
reconstruct our airport levee which is estimated to cost over 
$60 million. That is why we will be asking your support to help 
rebuild our levee to modern standards, reduce its vulnerability 
to seismic events and complete all of the environmental 
wetlands mitigation required under State and Federal law.
    We are already working in cooperation with the U.S. Army 
Corps to expedite this levee work. If we can obtain WRDA 
authority for the levee project, it will bring millions of 
dollars for construction that will create hundreds of new jobs 
in the Bay area. Most importantly, the work will preserve the 
tens of thousands of jobs that rely on a vibrant and well 
functioning airport every day.
    On behalf of the Port of Oakland and my fellow 
Commissioners, I ask you, the members of this Committee, to do 
everything within your power to pass WRDA. Please give us the 
resources we need to create jobs, modernize our infrastructure, 
and promote economic growth in our region.
    Thank you.
    [The prepared statement of Mr. Uno follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Senator Boxer. Thank you so very much.
    For my colleagues who arrived, we are going to have a vote 
early this morning. So, we are getting through the witnesses. I 
will give up my question time to you. So, we will start off 
with Senator Udall, then go to Alexander and Klobuchar.
    So, let us continue. Matt Woodruff hails from Houston, 
Texas. He is the Director of Government Affairs for the Kirby 
Corporation, the Nation's largest operator of inland tank 
barges.
    Welcome, sir.

             STATEMENT OF MATT WOODRUFF, DIRECTOR, 
             GOVERNMENT AFFAIRS, KIRBY CORPORATION

    Mr. Woodruff. Thank you. Also, I am a member of the Inland 
Waterways Users Board, which is the group established in WRDA 
1986 to advise the Corps and Congress on matters related to 
construction on our inland waterways.
    Our inland waterways system is a national treasure. Low 
cost waterway transportation helps our farmers and 
manufacturers stay competitive in tough world markets. When you 
talk about the future of the waterways, you are talking about 
the future of a large segment of our economy.
    Today, I want to tell you about a 20-year plan to keep our 
waterways reliable and bring billions of dollars in benefits to 
our economy, creating and maintaining a host of jobs along the 
way. We need this Committee's help for this vision to become a 
reality.
    Barges are the most cost efficient way to move the bulk 
commodities that are the building blocks of our Nation's 
economy. Barges are the greenest, safest and most energy 
efficient mode of surface transportation.
    A truck can move a ton of cargo 155 miles on a gallon of 
fuel. A train can move that cargo 413 miles. But a barge will 
move it 576 miles on that same gallon of fuel. Moving cargo by 
rail generates about 39 percent more CO<INF>2</INF> than 
barges. Moving that same cargo by truck generates 371 percent 
more. A typical 15-barge river tow can take 1,050 truckloads of 
cargo off the highways.
    [Diagram shown.]
    Mr. Woodruff. The diagram there gives you a little bit of 
an indication on the right, trucks, railcars and barges. If the 
cargo that is transported by barges today were instead 
transported by trucks on our interstates, heavy truck traffic 
would nearly double. If you put it all on trains, rail traffic 
would increase by 25 percent. Attached to my written testimony 
are some materials summarizing these and other facts related to 
barge transportation.
    Today, our inland waterways projects are under-funded, over 
budget and years past their planned completion dates. We 
spend--or we spent--the surplus in the Trust Fund and have far 
too little to show for it. We place too much emphasis on 
starting projects and not enough on finishing them. We need to 
fix the system.
    Several years ago, the senior leaders of our industry began 
to meet with the leadership of the Corps and ultimately decided 
to put a team together to find a comprehensive solution to our 
problems. And the team, composed of experts within the Corps 
and leaders from the inland waterway industry, spent nearly a 
year and a half doing so.
    I have here a copy of the team's final report which on 
April 13th was unanimously adopted by the Inland Waterways 
Users Board and transmitted to the Administration and to 
Congress. It lays out a comprehensive solution to the 
challenges faced by our inland waterway system.
    We recommend a set of improvements to the project delivery 
system, some of which are already being implemented by the 
Corps, that will get our projects built on time and on budget. 
We developed a realistic budget for new construction and major 
rehabilitation. At $380 million a year, we think it is in line 
with the funding levels of recent years.
    We apply that budget to a dynamic 20-year construction plan 
that objectively prioritizes the projects. We focus on 
allocating money each year to only those projects that can be 
efficiently funded with the funds that are available. And that 
means that some vital projects may have to wait a few years to 
get started, but importantly they will be finished earlier 
under this plan than if we maintain the status quo.
    And I think that is very critical. If the projects do not 
get the money they need when they need it, then we cannot 
accomplish all that we have to do. And that means that we are 
going to have to find some mechanism to smooth out some of the 
vagaries of the annual appropriations process.
    This is going to require an increased level of investment, 
and so we propose a 30 to 45 percent increase in the current 
fuel tax that our industry pays. We also propose adjustment of 
elements of the cost sharing formula to reflect the multiple 
beneficiaries of the system, and to stop placing an undue share 
of the burden of rebuilding it on just one group of users. We 
are willing to accept this level of tax increase if it is part 
of the comprehensive plan to ensure future reliability of the 
system.
    The benefits: We should finish 25 projects in the next 20 
years as opposed to six if we maintain the status quo. We will 
avoid between $350 million and almost $1.2 billion of project 
cost growth, and we should recognize at least $2.8 billion in 
benefits from these projects that would be foregone if their 
completion dates were delayed.
    Over 200 companies----
    Senator Boxer. I am going to ask you to summarize because 
you are out of time, and we are so under the clock here.
    Mr. Woodruff. Absolutely. We hope the Committee will join 
200 entities who have already approved this plan and approve 
legislative language this year to make this a reality.
    [The prepared statement of Mr. Woodruff follows:]
    
    
    
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    
    
        
    Senator Boxer. Well, that summed it up beautifully for me.
    [Laugher.]
    Senator Boxer. Our next witness is a source of pride and 
joy for me as well. Mitch White is the General Counsel of the 
Southern California Office of the Manson Construction Company 
located in Long Beach, California. Today, he is representing 
the Associated General Contractors of America, known as AGC.
    And I want to thank them for all the help they gave us, 
along with the Chamber and the unions and so many others, in 
moving our Highway Bill and getting it extended to the end of 
the year. I want to say thank you, again, for that.
    So, you were the immediate Past Chair of AGC's Federal and 
Heavy Construction Divisions, and we are looking forward to 
your testimony.

STATEMENT OF MITCH WHITE, GENERAL COUNSEL, SOUTHERN CALIFORNIA 
    OFFICE, MANSON CONSTRUCTION CO.; IMMEDIATE PAST CHAIR, 
  ASSOCIATION OF GENERAL CONTRACTORS OF AMERICA, FEDERAL AND 
                  HEAVY CONSTRUCTION DIVISION

    Mr. White. Thank you, Madam Chairwoman, Ranking Member 
Inhofe and distinguished members of this Committee, for 
inviting me to participate in today's important hearing on how 
passing a Water Resources Development Act in 2010 will provide 
a path to job creation and lead our economy down to the road to 
recovery.
    On behalf of AGC, I urge this Committee to swiftly act on 
passage of a new Water Resources Development Act as a means of 
providing a legislative vehicle which, when coupled with 
significant funding, will substantially boost construction jobs 
and improve our diminished national infrastructure.
    While the Nation suffers, continues to suffer, through a 
recession, the construction industry is experiencing 
depression-like conditions. Nationally, only 11 out of 337 
metropolitan areas added construction jobs between March 2009 
and 2010. Over that same period, 48 States and the District of 
Columbia lost construction jobs.
    The current unemployment rate in the construction trades is 
25 percent. Infrastructure investment will dramatically improve 
this unemployment rate. Stephen Fuller of George Mason 
University estimates that for every $1 billion invested in 
infrastructure projects you would create over 28,500 new direct 
and indirect jobs. Each $1 billion invested would add about 
$3.4 billion to the gross domestic product.
    There is no question that numerous other benefits would be 
provided by a WRDA. Previous investment in flood damage 
reduction projects has prevented an estimated $706 billion in 
flood damage, an 8 to 1 return on the Federal Government's 
investment. Operations and maintenance work provides an average 
return of $14.10 for every $1 invested. In the Mississippi 
Valley and tributary system, more than $24 in damages is saved 
for every $1 spent.
    Water resources infrastructure is a key to recovery. Our 
Nation's waterways infrastructure has construction, operations 
and maintenance needs that a new WRDA would facilitate. In 
addition to job creation, water resources projects, if 
authorized and funded, would provide other benefits resulting 
in substantially reducing the backlog of critical maintenance 
and repairs at approximately 360 multiple purpose flood 
control, hydropower, recreation, water supply and navigation 
projects, the repair of several high risks dams, the upgrade of 
hydropower plants to achieve an industry standard of 98 percent 
availability, fully dredging to authorized depth the Nation's 
296 highest use deep draft commercial ports, fully dredging our 
inland waterways to authorized depth and width, and realization 
of critical coastal population protection projects.
    The Nation's marine transportation system contributes 30 
percent to the gross domestic product. Failure to maintain 
channels in waterways creates a drag on the economy and may 
slow economic growth. Additional investment in our Nation's 
waterways would be used to improve channel availability of our 
coastal ports from 32 to 95 percent and would improve inland 
waterway lock and channel reliability and availability by 
reducing lock closures due to mechanical failures from 27,000 
to 10,000 hours per year.
    Finally, investment in this sector will greatly expedite 
the construction of critical environmental projects and return 
critical ecosystems to a more natural state.
    Before concluding, I want to speak to the Harbor 
Maintenance Trust Fund and how using those funds for their 
intended purpose will create additional jobs and economic 
opportunities.
    The current state of the Nation's harbors and navigation 
channels, getting narrower and shallower each year, requires a 
substantial increase in spending on harbor maintenance. 
Accordingly, we remain concerned about the current balance in 
the Harbor Maintenance Trust Fund. As of September 30, 2009, 
the balance in the HMTF was $5.1 billion, an increase of $461 
million, or 10 percent, over the fiscal year 2008 year-end 
balance, even after all fund transfers to the Corps of 
Engineers and other authorized users.
    This balance has grown by $3.2 billion, or by 173 percent, 
since the end of 2002. Revenues have substantially exceeded 
appropriations for a number of years despite the demonstrated 
need for harbor maintenance.
    As Congress considers additional opportunities to invest in 
water resources spending to stimulate the economy, the surplus 
in the HMTF should not be overlooked as an immediate source of 
revenue to fund these critical projects. Furthermore, as 
Congress looks toward a long-term investment, AGC strongly 
recommends enactment of legislation setting the appropriations 
from the HMTF each year equal to projected revenues to be 
collected in the HMTF for that year.
    Madam Chairman, we at Manson Construction and members of 
the AGC are ready to build these projects so we can create and 
sustain jobs throughout the country. Construction has always 
been an engine of economic stimulus and can play that role once 
again.
    Increases in infrastructure investment can be quickly put 
to work and will have a direct, immediate and dramatic impact 
on the economy. The long-term economic benefits of 
infrastructure investment today should not be overlooked. 
Through additional investment in infrastructure, our Nation 
would be well positioned to emerge from the economic downturn, 
rebuild a world class infrastructure system and ensure our 
continued economic prosperity well into the future.
    Thank you for this opportunity to comment. I look forward 
to working with the Committee and would be happy to answer any 
questions.
    [The prepared statement of Mr. White follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you so much. Thanks to the whole 
panel.
    So, I am going to give my question time over to Tom Udall, 
and Senator, you can use it any way, for an opening statement 
or questions. You have 5 minutes.
    Senator Udall. OK. Thank you very much, Madam Chair.
    Just by way of an opening, I think this panel has really 
demonstrated dramatically how WRDA and other recovery projects 
we put into place over the last year or so, they are very 
successful at creating jobs. I think each of you has outlined 
that, and I do not think there is any doubt about it.
    One of the things I wanted to mention, by way, I guess, of 
an opening, is that in New Mexico, many of our communities are 
threatened by snow melt and major storms and arroyos. And so 
what we have done, for example, in the city of Albuquerque, to 
protect the city from flooding, is build a series and a system 
of levees back in the 1940s and 1950s. And we are getting to 
the point now where we need a reauthorization under WRDA to do 
a major rehabilitation of those levees which, I think, once 
again would drive home the point that there are jobs in this.
    Mr. Woodruff, what I would like to ask you about, you know, 
you really drove a point with regard to the energy efficiency, 
and you talked about a gallon of fuel and how much further a 
gallon of fuel could go from truck to rail to barge. Do you 
have any suggestions? And to me that shows that we have very, 
very good energy efficiencies that we could capitalize on if we 
developed our policy that way.
    And I am wondering, do you have any recommendations for 
this Committee on how to encourage those efficiencies, where 
they are possible, from a policy side or from a legislative 
side? How we can make sure that when we do the transport, 
whether it is people or goods, that we do it in the very, very 
most efficient way?
    Mr. Woodruff. Our belief is that the way that you promote 
better modal efficiencies is through incentives to the 
shippers, as opposed to incentives to the carriers. We believe 
that our industry, the barge industry, the shipping industry, 
we have the equipment and we will build the equipment needed to 
move that cargo if the cargo comes to us for transport.
    And I think there are a variety of things that can be done. 
Certainly, barge transportation will never replace truck or 
rail transportation. I like to tell people I have never seen a 
barge dock behind a grocery store. There are those things for 
which each mode is essential. But to the extent we can choose 
the best mode for a particular cargo and ensure that we are 
using the most efficient mode, then we should do so.
    One thing that barges offer is a great deal of capacity. 
Our inland waterways have vast untapped capacity, whereas our 
other modes are very near their capacity. So that is another 
incentive to bring cargo to the waterways from other modes that 
may not be able to as efficiently handle them.
    Senator Udall. So, how do we tap that vast, that capacity 
that is out there that you are talking about? I mean, what are 
your ideas for that?
    Mr. Woodruff. Well, we have the equipment ready for the 
cargo today. We can move intermodal cargos, shipping 
containers, we can move bulk commodities. We have the ability 
to do it. We are, many companies in the industry, prepared to 
do it. I think it is finding a way to give the shippers the 
economic advantage to realize the benefits that we have to 
offer them.
    Certainly, there are some connector issues. Every time you 
move from one mode to the other, there are expenses that are 
associated with that. It is just a matter of reallocating, I 
guess, the economic incentives so that it makes it economically 
advantageous to take the most efficient route.
    Senator Udall. Thank you very much. And I am going to yield 
back a little of the time so that everybody can get some 
questioning in before the vote here. Thank you.
    Senator Boxer. Thank you. The Ranking Member would like to 
be recognized.
    Senator Inhofe. Yes. Thank you very much, Madam Chairman.
    First of all, well, let me just mention that this is really 
kind of an Oklahoma hearing. I look out here, and I see Julie 
Daniels, I have worked with her on projects up in Bartlesville, 
Oklahoma, Matt Myers, Shane Frye, Wendy Taylor, Kirby Crowe, 
Karen Keith. Karen Keith's a good liberal Democrat like you, 
Madam Chairman, and I want you to know----
    Senator Boxer. Good for you, Karen.
    [Laugher.]
    Senator Inhofe. You would be surprised how well we get 
along. And I am pretty extreme on the right, and she is pretty 
extreme on the left----
    Senator Boxer. Speak for yourself. I am not extreme.
    [Laughter.]
    Senator Inhofe. But we all agree----
    Senator Boxer. Just ask Bernie Sanders. He does not think I 
am extreme at all.
    [Laughter.]
    Senator Inhofe. You are going to have to give me more time 
if we are going to talk about Bernie.
    Senator Boxer. You have an extra minute. Any time.
    [Laughter.]
    Senator Inhofe. OK. My point is this. We can all agree that 
Government has functions to perform. And this WRDA bill, Water 
Resources Development Act, as well as what we are trying 
desperately to get, and I talked to this group yesterday about 
reauthorization of the transportation, it is something we need 
to be done.
    These are authorization bills. And those people out there 
that call them earmarks, I am the only one up here who can 
really address this in a convincing way because the reason I am 
late is because I had to go over there and get my award for 
being Number One, the 100 percent, by the American Conservative 
Union, right before I came here. Last month, the National 
Journal had me ranked as the most conservative member of the 
U.S. Senate.
    Now, I say that because I am a very strong believer that 
our system will work if people will get serious about it, and 
we go through authorization. When we go through authorization, 
we qualify these things. When we sat down and did the 2005 
reauthorization bill for transportation, we had criteria. 
Everything had to meet these criteria. Then we made allocations 
out to States.
    This is the way it is supposed to happen. And people who 
talk about earmarks, it is the phoniest issue out there. 
Because the very individuals who complain about earmarks are 
the ones who vote for the very largest, multi-hundred billion 
dollar bills, then they hold up this earmark thing to make 
people think they are conservative.
    Let me be specific. One of the votes that bothered me, I 
hate to say this in front of my friends who voted for it, was 
the $700 billion bailout. That was October 1, 2008. Then we had 
the $300 billion bailout, we had the $50 billion, the PEPFAR 
Bill, to increase the amount of money going to communicable 
diseases in foreign countries. They vote for all of these 
things, and then they turn around and complain about the things 
that we are doing here today.
    Now, the bottom line is this. We have needs that are out 
there. We have, in my State of Oklahoma, things that need to be 
done, things that are the legitimate function of Government to 
do. This WRDA bill is to make sure that we do not put out 
things that are not deserving of public funding and that they 
go through the process. So, I had to say that because I know 
that there are so many people who exploit this notion of 
earmarks, and it is something that has got to be exposed sooner 
than later. So, this is sooner.
    Let me ask you, Mr. Woodruff, I had an opening statement 
and I was going to talk about, a little bit about, what I just 
now said but in a little nicer way. But that took too long. 
Also, I was going to mention that not many people realize that 
my State of Oklahoma is really a navigable State. We have a 
waterway that comes all the way from--I am sure you are aware 
of this, Senator Alexander--it comes all the way up the 
Mississippi and Arkansas Rivers, and we are moving goods in and 
out, and it is a great thing.
    I would like to ask Mr. Woodruff, you are familiar with 
what we do. I would like to have you, kind of from your 
perspective, describe how this great event, I am particularly 
biased to this waterway because my father-in-law, many years 
ago, along with McClellan and Kerr, had a lot to do with 
building this thing. How has this contributed, and is still 
contributing today, to the economy of Oklahoma and surrounding 
States?
    Mr. Woodruff. Well, in immeasurable ways. We talked about 
agricultural exports, fertilizer coming in, agricultural 
products going out. There are oil products, petroleum products 
that come into the Port of Catoosa, the Tulsa Port of Catoosa, 
that otherwise would be on trains or trucks, causing congestion 
on our highways.
    But in terms of jobs there, I am thinking of a facility 
right there in Catoosa that builds huge heat exchangers that 
are used throughout the world in industrial facilities. And if 
it were not for the waterway there, I do not think those 
products could ever leave their factory and go to those 
markets.
    So, for those cargos that are just too big to go by other 
modes, that allows jobs to be created and maintained, good high 
paying manufacturing jobs, right there in Catoosa, serving the 
world.
    Senator Inhofe. Well, you see, that is the point that I am 
making. In the things that we do, and I would say some of the 
same things about some of the EDA programs, but since our time 
is short, I am sure the Chairman has told you that we have a 
vote coming up----
    Senator Boxer. It has already started.
    Senator Inhofe. It has already started?
    Senator Boxer. Yes.
    Senator Inhofe. Anyway, let me just ask our friend from the 
Chamber of Commerce, I made some pretty strong statements 
concerning this fraud called earmarks. Do you have any thoughts 
about this? Because generally the Chamber, these are 
conservative people, free enterprising people, and how do you 
see this in terms of the role of conservative government 
serving America?
    Ms. Kavinoky. Well, certainly when it comes to a WRDA bill, 
and particularly this has always been a project-based bill, it 
has been a way to designate things that are important to the 
Nation and to the economy. I think we differentiate between 
earmarks which are for the items that people say, ah, this 
would a great idea to do, this is what I need in order to vote 
for a bill, and things that really look at what is important to 
the economic elements of the Nation. That is why in our work 
that we are doing on SAFETEA-LU reauthorization and on this, we 
are focused on how do you get the biggest bang for the buck out 
of every project?
    Senator Inhofe. Alright. Would you agree with this? If we, 
if we would redefine earmark as an appropriation that has not 
been authorized, I am with everybody on this, would you agree 
with me?
    Ms. Kavinoky. Absolutely.
    Senator Inhofe. There is the solution to the problem, Madam 
Chairman.
    Senator Boxer. Well, I agree. Fully.
    Senator Inhofe. Sure you do.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for holding this hearing, and 
thank you to all the witnesses for joining us this morning. 
Before I get into my statement, I just want to say that I 
support the Chair's intent to move a Water Resources 
Development Act, or WRDA, this year. Regularly enacted WRDA 
bills provide the best opportunities to address our Nation's 
water resources infrastructure needs.
    The purpose of today's hearing is to discuss the job 
creation and economic development benefits associated with the 
kinds of water resources projects and policies typically 
authorized in a WRDA and carried out by the Army Corps of 
Engineers.
    It took 7 years to enact the last WRDA (WRDA 2007), with 
detractors making two main arguments. First, there were 
complaints that Corps projects are a waste of taxpayer dollars. 
I couldn't disagree more.
    This year I again was ranked by National Journal as the 
most conservative Senator, and I certainly take fiscal 
responsibility seriously. I firmly believe, however, that the 
two things the Federal Government should invest in are national 
defense and public infrastructure. Investments in 
infrastructure--including water resources infrastructure such 
as navigation channels, ports, flood control and hurricane 
protection measures--not only have short-term job creation 
benefits, but more importantly they help bring about long-term 
economic development opportunities. This dual benefit is one 
reason I tried to get a greater percentage of the stimulus 
dollars directed to infrastructure. Unfortunately, that didn't 
happen.
    Our witnesses today will discuss the economic contributions 
these infrastructure projects make from the national 
perspective, but I'd like to take a moment to talk about my 
home State of Oklahoma. Many people think of Oklahoma as 
completely landlocked, but we actually have a very successful 
port in Tulsa called the Port of Catoosa. It is a combined 
port, industrial park and multi-modal shipping complex, 
currently with more than 60 companies employing nearly 3,000 
employees.
    The port lies at the head of navigation for the McClellan-
Kerr Arkansas River Navigation System, which stretches 445 
miles to the Mississippi River. More than 11.6 million tons 
were shipped on the McClellan-Kerr in 2009, with about 18 
percent of that total going through the Port of Catoosa. Prior 
to the economic downturn, the system often carried closer to 13 
million tons in an average year. This cargo typically consists 
of sand and rock, fertilizer, wheat, raw steel, and refined 
petroleum products.
    The navigation system, as well as other Corps facilities 
elsewhere in Oklahoma, also contributes economically by 
providing flood protection, clean and affordable hydroelectric 
power, and recreation opportunities for local communities. None 
of this economic activity would have been realized if the 
Federal Government, through the Corps of Engineers, hadn't 
decided in 1946 to invest in this waterway.
    The second main argument against WRDA 2007 was that it 
contained earmarks and therefore was simply full of ``pork 
projects.'' Again, I must disagree with the reasoning of some 
of my colleagues.
    Yes, WRDA includes authorizations and modifications of 
specific projects. But these so-called ``earmarks'' are the 
first step in the well established authorization and 
appropriations process. One of the best checks on out-of-
control spending is limiting funding to only those projects and 
programs that have been authorized properly. In fact, I have 
objected many times to unauthorized items being funded in 
appropriations bills as well as to authorization language being 
included in appropriations bills.
    The authorization process, and EPW as an authorizing 
Committee, provides the first congressional review of projects 
and programs to ensure that only legitimate needs that have a 
Federal interest are eligible for funding consideration. One 
question EPW has traditionally asked when considering WRDA 
requests is, ``Does the project have a Chief's Report?'' The 
Corps issues Chief's Reports for only those projects shown to 
have national benefits in excess of project costs. Once 
projects are authorized, it is then up to the appropriations 
process to determine priorities for funding.
    For these reasons and others, I am a strong supporter of 
investment in infrastructure and of the importance of working 
on a WRDA. I am pleased to have the Committee turn to this 
bipartisan issue that can have significant economic benefits, 
and I look forward to hearing the testimony from our witnesses.

    Senator Boxer. Senator Alexander, I just want you to know 
that I have been following the flooding in your State, and my 
heart goes out to you. I know the suffering that is going on. 
And this bill is directly related to these kinds of things. So, 
we would like to close our hearing with you.
    Senator Alexander. Thank you, Madam Chair, and thank you 
for your comments both here and yesterday when we talked about 
it. And I am glad you and Senator Inhofe are here because I had 
something I wanted to say about the Nashville flooding.
    This is a thousand-year rain event. When they told me that 
was NOAA's estimate I thought they were talking about Noah's 
ark. But it had not rained like this in a thousand years. We 
had 25 inches in 2 days, which is twice as much rain as many 
western States get. And this is the time, the Mayor of 
Nashville estimates that this is just one of 52 counties that 
may be affected. He estimates that there may be $1 billion of 
damage just in the Nashville area alone. So, this is a time for 
cleaning up and helping people.
    But it is also a time for asking the question, what could 
we do better? And I wanted to just suggest to the Chair and to 
the Ranking Member that one of the things that we might be able 
to do better in the event of a disaster like this is to have 
clear and correct and consistent information from the Corps of 
Engineers about the release of water from the Old Hickory and 
Percy Priest Dams in our case.
    It is too early to say whether it was unclear or incorrect 
or inconsistent, and this is not the time to be talking about 
it. But as we work on this bill, or perhaps even in a hearing, 
we could address the question of whether clear, consistent and 
correct information from the Army Corps of Engineers to the 
community might have saved millions of dollars in records, in 
homes, and in lives even, because people had better information 
about the rise of the flood waters on the Cumberland River.
    So, this was a problem after Katrina. I know Senator 
Landrieu talked about it. And in an orderly and appropriate 
way, at the right time, I would like to address this question 
of making sure that individuals and businesses have the 
opportunity to get the clearest, most consistent, correct 
information about rising water.
    Senator Boxer. I think it is very important, and we will 
talk to you about how we can best facilitate that.
    Senator Alexander. I thank the Chair.
    And then the other thing I wanted to say, I appreciate 
Senator Inhofe's comments, too, on earmarks. I mean, people 
come to see me about whether the dams in middle Tennessee are 
safe or we need housing for the most deployed troops in America 
at Fort Campbell. My job is not to give them President Obama's 
telephone number. But that is another suggestion.
    I wanted to say a word about Mr. Woodruff's recommendation, 
the Chickamauga Lock, as an example. We have a lock in 
Chattanooga called the Chickamauga Lock. It was built in 1940. 
It will probably close in 2018 if it is not replaced. And work 
has already begun, but it stopped because there is not enough 
money. There is some Federal money appropriated but there is 
not enough money from the Inland Waterway Trust Fund to finish 
the lock.
    If it were to close, that is 2.5 million tons of cargo. The 
new lock will hold 6.7 million tons of cargo annually. It will 
take 100,000 tractor trailers off the road. This is a lock that 
is a major transportation artery for the Oak Ridge National 
Laboratory, for the Nuclear Weapons National Security Complex 
at Oak Ridge, and for the Tennessee Valley Authority. So, this 
is tremendously important to our region.
    I want to ask you, Mr. Woodruff, in the remaining minute 
and a half, if there is anything extra that you would like to 
say about the recommendations of your report on changing the 
business practices of the Corps of Engineers and what might 
happen if your report were not implemented. I strongly support 
your report, and I hope this Committee will adopt it.
    Mr. Woodruff. Well, just to address the Chickamauga 
concern, if we maintain the status quo I cannot tell you when 
there would be money to finish the Chickamauga project. If this 
plan is adopted, it could be finished by 2015. That is an 
example of the dramatic types of improvement that we can obtain 
by focusing on finishing projects, being more efficient in the 
way that we build and construct projects.
    Twenty-five projects finished instead of six. That is what 
we are looking at over a 20-year period by some relatively 
simple steps to get better estimates when we go into projects, 
to have more efficient funding streams, to give the contractors 
the money they need to do what they want to do, which is build 
these projects efficiently so they can move on to the next one. 
Those are the things that we can do to achieve the success that 
we have to have.
    Senator Alexander. Well, your recommendation has my full 
support, of course, because it would help with the Chickamauga 
Lock, which would be unimaginable that we would have to close 
it, both because it would be a better use of taxpayers' dollars 
generally and because it would help create jobs in our country.
    I thank the Chair for the time.
    Senator Boxer. I am going to turn this hearing over to 
Senator Inhofe. He is so excited to have so many of his 
constituents here.
    Senator Inhofe. Well, let me just mention, before she goes 
out the door, Karen, just come back here, I want you to just 
meet Barbara before you leave.
    [Laughter.]
    Senator Boxer. Just come around that way. This way, and up 
the steps and back there.
    Senator Inhofe. Yes, yes.
    [Laughter.]
    Senator Boxer. But I made Senator Inhofe promise that he 
would not characterize his view of my politics----
    [Laughter.]
    Senator Boxer. And he said he would not. You know, if it is 
mainstream Democrat, that is what I am. But he said he will not 
go there. He is just going to behave and do good----
    Senator Inhofe. I will make this really brief, and in fact, 
while you are still here, Madam Chairman. I only wanted to say, 
and first of all, on these things, as I told all of you who are 
here, they are here because this is the Chamber in Oklahoma and 
I invited them to come by today, and they are very interested. 
Each one who is here is interested in something that we are 
doing with the WRDA bill potentially, for one, so that is why 
we do get along.
    The only last thing I wanted to say in terms of the earmark 
argument is the importance of authorization. Authorize, then 
appropriate. But if you appropriate without authorizing, that 
is where you get in trouble. That is where thing that do not 
deserve to get funded get funded. And people have got to learn 
that.
    The other example I was going to use is my other Committee, 
which is the Senate Armed Services Committee. Just to give you 
an example. We have experts that will evaluate our platforms, 
our ability to defend America, such as National Missile Defense 
Systems, how we want redundancy in all three, in the boost 
phase, midcourse phase and terminal phase, and if you do not do 
that, then you are going to depend on the President coming 
through and saying, well, we are not going to have that, we do 
not need a boost phase because we have got something, that is 
the role that authorizers do. We have experts that make these 
decisions.
    Any of these earmarks that they talk about, if you kill an 
earmark on the floor of the Senate, it does not save one cent. 
That money goes right back to the Administration. And if you 
think that, well, anyway, we do a good job. The authorization 
process is a good process. That is what we are doing here 
today, and I commend you on holding this hearing.
    Senator Boxer. Well, Senator, I think it is so great that 
we can work together on these infrastructure programs because 
you and I just agree completely. And I just wanted to point 
out, when we worked on the last WRDA, we had an uphill climb 
because we had a presidential veto. And we teamed up. And I 
checked with my staff and----
    Senator Inhofe. A Republican veto, it was.
    Senator Boxer. Yes, I know. But----
    Senator Inhofe. Well, I am just making an observation here.
    Senator Boxer. That is right, and it was harder for you, 
really. And I was so grateful. But we did it. And I checked 
back. In the history of the Nation, there have only been 110 
successful veto overrides. That is it, from the beginning of 
the country. And we were involved in that one.
    And I just think it speaks to what we need to do, and 
again, whether it is moving people, moving cargo, all the 
things that you were all so eloquent about, whether we are the 
Chamber of Commerce representing business, the labor unions 
represented here in many ways by Victor, the general 
contractors, a very large and successful company, this is a 
place where we can cut through the partisanship, we can come 
together, and Senator Inhofe and I are bound and determined to 
get this done.
    We thank you all. This has been a brief hearing, but you 
said it right----
    Senator Inhofe. Let me remind you also that there was a 
veto threat on the Transportation Reauthorization Bill, and I 
think the fact that I made it very clear that the Republicans, 
that some of us were going to be fighting that just like we did 
in WRDA, and I think that is probably the reason there was not 
one.
    Senator Boxer. That is probably true.
    Thank you, we stand adjourned.
    [Whereupon, at 10:15 a.m. the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Madam Chairman, thank you for holding this hearing today on 
another excellent jobs bill that our Committee will be taking 
up in the near future.
    I'm glad that we are focusing on the job creation and 
economic opportunities Water Resources Development projects 
create for the country. Just like improving our transportation 
or telecommunications infrastructure,
     keeping shipping channels open,
     protecting and restoring coastal ecology, and
     repairing dams
have considerable impacts on both local economies and the 
national economy.
    Examples of WRDA's economic impacts from both the local and 
national scale are found across Maryland.
    Maryland has a geography and topography which makes the 
Chesapeake Bay particularly susceptible to the adverse effects 
of erosion. This erosion contributes to 
5 million cubic yards of sediment deposited annually into the 
Bay, adversely affecting water quality, destroying valuable 
wetlands and habitat, and clogging navigation channels.
    Every year the Corps clears tons of eroded sediment from 
the Federal navigation channels that lead into and out of the 
Port of Baltimore. Keeping this port open and the channels 
dredged is essential not just for Maryland, but for the Nation.
    The Port of Baltimore is an enormous economic engine for 
Maryland with national significance. There are 126 miles of 
shipping channels leading to the Port of Baltimore. In 2008 
approximately 47.5 million tons of cargo, including 33 million 
tons of foreign cargo valued at $45.3 billion, and 
approximately 14.5 million tons of domestic waterborne cargo 
moved through the Port of Baltimore.
    Among the 360 U.S. ports, Baltimore is ranked No. 1 for 
handling:
     trucks,
     roll on/roll off cargo (i.e. automobiles, trucking 
trailers, and freight cars) and is the country's second largest 
automobile exporter,
     imported forest products, and
     gypsum, sugar and iron ore
and is nationally ranked 12th in total value of foreign cargo 
handled.
    The Maryland Port Administration estimates that the Port 
generates 50,700 jobs in Maryland with $3.7 billion in wages 
and salaries. Additionally, there are approximately 68,300 
related and indirect jobs associated with Port activities.
    At the local level, Maryland puts the Bay's dredge material 
to good use on coastal habitat, beach and island restoration 
projects.
    Along our Atlantic coast, powerful winter storms and 
tropical cyclones can cause considerable beach erosion--
threatening the economic vitality of our premier Atlantic coast 
resort city, Ocean City. This past November and December, Ocean 
City, Assateague National Seashore and other Mid-Atlantic 
coastal communities were pummeled by Nor'easter Ida.
    Since 1990 the Corps has supported an Atlantic coast 
protection program that involves replenishing the natural 
beaches that border Ocean City, Maryland. This coastal 
protection program has worked exceptionally well.
    The years of work on coastal wetland and beach restoration 
projects are what saved many of the homes and businesses on the 
lower shore. The Corps estimates that over $238 million in 
damages were prevented due to periodic beach renourishment 
projects. And those savings do not include the damages that 
were avoided last winter--we are still awaiting those final 
numbers.
    The Chesapeake Bay is the Nation's largest estuary. The 
Corps' oyster and habitat restoration, shoreline protection, 
and sediment management programs are integral to Bay 
restoration efforts.
    Oysters represent more than just a source of income for 
Maryland's watermen--they are natural biological filters, 
continually cleaning up the Bay.
    Last summer I was proud to join the Corps' top military 
leader, Major General Robert L. Van Antwerp, as we viewed the 
Poplar Island restoration project and the site of the proposed 
Mid-Chesapeake Bay Island Ecosystem Restoration project.
    Poplar Island has risen, phoenix-like, out of the 
Chesapeake Bay. Formerly eroded into a few tiny fragments, the 
Corps has used the dredge materials from the Baltimore 
navigation channels to rebuild this extraordinary island 
habitat.
    The Mid-Bay restoration effort will serve as a successor to 
Poplar Island. Mid-Bay will restore two major islands, James 
and Barren Islands, in the Chesapeake Bay. It will result in 
the restoration of more than 2,100 acres of coastal ecosystem 
restoration.
    The reconstruction of the islands in Dorchester County will 
help provide much needed island habitat to support the local 
ecosystems while also providing substantial relief from further 
erosion on the mainland.
    There are numerous other projects that I could cite. Each 
in its own way helps create and sustain jobs. And when these 
projects are done right, they support both domestic and 
international commerce as well as our environmental needs.
    I look forward to hearing from today's witnesses and 
working with my colleagues on the latest reauthorization of 
WRDA.

    [Additional material submitted for the record follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                                 [all]
</pre></body></html>
